Nos. 20-512 and 20-520

IN THE SUPREME COURT OF THE UNITED STATES
NerroNel

C

ollocmtn AruLsrIC

As s o cIATI oN,

Petitioner,

v.
SnawNo AlstoN, et al., Respondents.

AvpnIcaN

Atnlpuc

CoNpnnpNCE, et al., Petitioners,
v.

SnawNe AlsroN, et al., Respon dents.

CERTIFICATE OF COMPLIANCE WITH RULE 33.1
I, Thomas B. Nachbar, a member of the Bar of this Court, certi$z that the Brief
of Professor Thomas B. Nachbar as Anticus Curiae in Support of Petitioners
accompanying this certificate complies with the word limitations set forth in this
Court's Rule 33.1. According to the word processing system used to prepare the
document, the document contains 7,958 words, including footnotes and excluding the
parts of the brief that are exempted by Rule 33.1(d).
Executed on February 8,2021.

flnBkJ,-

Thomas B. Nachbar
Courusel of Record

Uxtvpnsrry oF Vrncrxm Scuoot- oF LAW
580 Massie Road

Charlottesville,
(434) 924-7588

Y A 22908

tnachb ar@law.vir ginia. e du

